5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

Consumer Credit
Card Agreement
And Disclosure
Important information about
your credit card.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

1/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

This Consumer Credit Card Agreement and Disclosure together with the Account
Opening Disclosure and any other Account opening documents or any
subsequent documents provided to You related to this Account (hereinafter
collectively referred to as “Agreement”) govern the terms and conditions of this
Account. “We,” “Us,” “Our” and “Ours” and “Credit Union” refers to Listerhill Credit
Union with which this Agreement is made. “You,” “Your,” and “Yours” refers to
each applicant and co-applicant for the Account; any person responsible for
paying the Account; and anyone You authorize to use, access or service the
Account. "Card" means the Visa® credit card and any other access devices,
duplicates, renewals, or substitutions, including convenience checks, the Credit
Union issues to You. "Account" means the line of credit established by this
Agreement and includes Your Card.

SECURITY INTEREST
You grant the Credit Union a security interest under the Uniform
Commercial Code and under any common law rights the Credit Union
may have in any goods You purchase
https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

2/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

may have in any goods You purchase.
If You give the Credit Union a speci c pledge of shares by signing a
separate pledge of shares, Your pledged shares will secure Your
Account. You may not withdraw amounts that have been speci cally
pledged to secure Your Account until the Credit Union agrees to
release all or part of the pledged amount.
You grant Us a security interest in all individual and joint share
and/or deposit accounts You have with Us now and in the future to
secure Your credit card Account. Shares and deposits in an IRA or
any other account that would lose special tax treatment under
state or federal law if given as security are not subject to the
security interest You have given in Your shares and deposits. You
may withdraw these other shares unless You are in default. When
You are in default, You authorize Us to apply the balance in these
accounts to any amounts due. For example, if You have an unpaid
credit card balance, You agree We may use funds in Your account(s)
to pay any or all of the unpaid balance. You acknowledge and agree
that Your pledge does not apply during any periods when You are a
covered borrower under the Military Lending Act. For clarity, You

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

3/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

will not be deemed a covered borrower, and Your pledge will apply,
if: (i) You established Your credit card Account when You were not a
covered borrower; or (ii) You cease to be a covered borrower.
Unless otherwise prohibited by federal and/or state law, collateral
securing other loans You have with the Credit Union may also secure
this loan, except that a dwelling will never be considered as security
for this Account, notwithstanding anything to the contrary in any
other Agreement.

1. USING YOUR ACCOUNT — By using the Account or keeping the Card, You
agree to the terms of this Agreement. You agree to use Your Account in
accordance with this Agreement. Your Account must only be used for lawful
transactions.
2. CREDIT LIMIT — We may establish a credit limit as part of this Agreement,
which You promise not to exceed. If You exceed the credit limit, You promise to
repay immediately the amount which exceeds the credit limit, including amounts

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

4/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

due to nance charges, fees or other charges. You may request a credit limit
increase on Your Account only by a method acceptable to the Credit Union. We
may increase or decrease Your credit limit, refuse to make an advance and/or
terminate Your Account at any time for any reason permitted by law.
3. CONVENIENCE CHECKS — We may, from time to time, issue convenience
checks to You that may be drawn on Your Account. Convenience checks may not
be used to make a payment on Your Account. If You use a convenience check, it
will be posted to Your Account as a cash advance. We reserve the right to refuse
to pay a convenience check drawn on Your Account for any reason and such
refusal shall not constitute wrongful dishonor. You may request that We stop the
payment of a convenience check drawn on Your Account. You agree to pay any
fee as identi ed in this Agreement imposed to stop a payment on a convenience
check issued on Your Account. You may make a stop payment request orally, if
permitted, or in writing. Your request must be made with su cient time in
advance of the presentment of the check for payment to give Us a reasonable
opportunity to act on Your request. In addition, Your request must accurately
describe the check including the exact Account number, the payee, any check
number that may be applicable, and the exact amount of the check. If permitted,
You may make a stop payment request orally but such a request will expire after
14 days unless You con rm Your request in writing within that time. Written stop

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

5/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

days u ess ou co

ou

equest

t g

t

t at t

e.

tte stop

payment orders are e ective only for six months and may be renewed for
additional six month periods by requesting in writing that the stop payment
order be renewed. We are not required to notify You when a stop payment order
expires.
If We re-credit Your Account after paying a check over a valid and timely stop
payment order, You agree to sign a statement describing the dispute with the
payee, to assign to Us all of Your rights against the payee or other holders of the
check and to assist Us in any legal action.
You agree to indemnify and hold Us harmless from all costs and expenses,
including attorney's fees, damages, or claims, related to Our honoring Your stop
payment request or in failing to stop payment of an item as a result of incorrect
information provided to Us or the giving of inadequate time to act upon a stop
payment request. Note: A convenience check is not a check as that term is
de ned under the Uniform Commercial Code. It is an advance from Your credit
card Account with Us and Your stop payment rights are provided under this
Agreement with Us.
4. REPAYMENT — You promise to repay all amounts You owe under this
Agreement. Your promise to repay includes all transactions made to Your
Account by You or anyone You authorize to use Your Account as well as all

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

6/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

ccou t by ou o a yo e ou aut o

e to use ou

ccou t as

e as a

interest charges and fees.
For each billing period, You must pay at least the Minimum Payment Due by the
Payment Due Date.
The Minimum Payment Due is 2.00% of Your total New Balance, or $25.00,
whichever is greater, plus any amount past due and any amount by which You
have exceeded Your applicable credit limit. If Your total New Balance is less than
$25.00, then Your Minimum Payment Due is the amount of the total New
Balance.
You may pay more frequently, pay more than the Minimum Payment Due or pay
the total New Balance in full.
If You make extra or larger payments, You are still required to make at least the
Minimum Payment Due each month Your Account has a balance (other than a
credit balance). The Credit Union may delay replenishing Your credit limit until
the date the payment is posted or the Credit Union con rms the payment has
cleared.
Your payment of the required Minimum Payment Due may be applied to what
You owe the Credit Union in any manner the Credit Union chooses, as permitted
by applicable law. If You make a payment in excess of the required Minimum

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

7/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

Payment Due, the Credit Union will allocate the excess amount rst to the
balance with the highest annual percentage rate (“APR”) and any remaining
portion to the other balances in descending order based on applicable APR,
unless otherwise prescribed by applicable law. We may accept checks marked
"payment in full" or with words of similar e ect without losing any of Our rights
to collect the full balance of Your Account with Us.
5. INTEREST AND FINANCE CHARGES — We will begin charging You interest on
purchases on the date the transaction is posted to Your Account. We will begin
charging You interest on cash advances and balance transfers on the date of the
transaction or the rst day of the billing cycle in which the transaction is posted
to Your Account, whichever is later (transaction date). However, We will not
charge You any interest on new purchases if Your Account had a zero or credit
balance at the beginning of that billing cycle, or You paid the entire new balance
on the previous cycle's billing statement by the Payment Due Date of that
statement. To avoid an additional nance charge on the balance of purchases,
You must pay the entire new balance on the billing statement by the Payment
Due Date of that statement.
How We Calculate Your Balance:

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

8/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

Interest charges on Your Account are calculated separately for purchases,
balance transfers and cash advances (“Transaction Type”). We gure the interest
charge for each Transaction Type by applying the periodic rate to each
corresponding “average daily balance.” To get the “average daily balance” for a
Transaction Type We take the beginning balance for that Transaction Type each
day, add any new transactions of that type, and subtract any unpaid interest or
other nance charges and any applicable payments or credits. This gives Us the
daily balance for each Transaction Type. Then, for each Transaction Type, We add
up all the daily balances for the billing cycle and divide each total by the number
of days in the billing cycle. This gives Us the “average daily balance” for each
Transaction Type.
6. FEES — In addition to the periodic rate, additional fees may be imposed on
Your Account. If applicable to Your Account, the fee amounts and explanations
are disclosed on the Account Opening Disclosure accompanying this Agreement.
7. FOREIGN TRANSACTIONS — Purchases and cash advances made in foreign
currencies will be debited from Your Account in U.S. dollars. The exchange rate
between the transaction currency and the billing currency used for processing
international transactions is a rate selected by Visa from a range of rates

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

9/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate Visa itself receives or the governmentmandated rate in e ect for the applicable central processing date. The exchange
rate used on the processing date may di er from the rate that would have been
used on the purchase date or cardholder statement posting date.
A fee ( nance charge) will be charged on all transactions completed in a foreign
currency. All fees are calculated based on the transaction amount after it is
converted to U.S. dollars. These fees are charged except where excluded. The
Foreign Transaction Fee is set forth on the Disclosure accompanying this
Agreement.
8. AUTHORIZATIONS — We do not guarantee authorization of a transaction,
either by Us or by a third party, even if You have su cient credit available. You
agree that We will not be liable for failing to give an authorization. We also
reserve the right to limit the number of transactions that may be approved in
one day. We reserve the right to deny certain transactions for any reason and at
Our sole discretion, including for default, suspected fraudulent or unlawful
activity, internet gambling or any indication of increased risk related to the
transaction or the Account. You agree that We have no requirement to notify You

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

10/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

of the speci c reason We denied a transaction. If We detect unusual or
suspicious activity, We may suspend Your credit privileges until We can verify the
activity, or We may close the Account.
9. INFORMATION UPDATING SERVICE AND AUTHORIZATIONS — If You have
authorized a merchant to bill charges to Your Card on a recurring basis, it is Your
responsibility to notify the merchant in the event Your Card is replaced, Your
Account information (such as Card number or expiration date) changes, or Your
Account is closed. However, if Your Card is replaced or Your Account information
changes, You authorize Us, without obligation on Our part, to provide the
updated Account information to the merchant in order to permit the merchant
to bill recurring charges to Your Card. You authorize Us to apply such recurring
charges to Your Card until You notify Us that You have revoked authorization for
the charges to Your Card.
Your Card is automatically enrolled in an information updating service. Through
this service, Your updated Account information (such as Card number or
expiration date) may be shared with participating merchants to facilitate
continued recurring charges. Updates are not guaranteed before Your next

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

11/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

payment to a merchant is due. You are responsible for making direct payment
until recurring charges resume. To revoke Your authorization allowing Us to
provide updated Account information to a merchant, please contact Us.
10. PREAUTHORIZED CHARGES — We may suspend preauthorized recurring
charges with merchants if, for example, Your Card is lost or stolen, You default,
or We change Your Account for any reason. If preauthorized recurring charges
are suspended, You are responsible for making direct payment for such charges
until You contact the merchant to reinstate recurring charges.
11. DEFAULT — You will be in default under this Agreement if You fail to pay the
Minimum Payment Due by its Payment Due Date; pay by a check or similar
instrument that is not honored or that We must return because it cannot be
processed; pay by automatic debit that is returned unpaid; make any false or
misleading statements in any credit application or credit update; le for
bankruptcy; or die. You will also be in default if You fail to comply with the terms
of this Agreement or any other Agreement You have with Us.
If You default, We may close Your Account and require You to pay any unpaid
balance immediately, subject to applicable law. In this Agreement and on Your
Credit Card Application, You gave Us a security interest in all individual or joint

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

12/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

C ed t Ca d pp cat o , ou ga e Us a secu ty

te est

a

d

dua o jo t

share and/or deposit accounts with the Credit Union and authorized Us, if You
defaulted, to apply the balance in these accounts to any amounts due. You agree
We may rely on Your agreement and authorization to, upon Your default, apply
any balance to any amounts due on Your Account.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION —
If You notice the loss or theft of Your credit card or a possible unauthorized use
of Your Card, You should call Us immediately at 800-239-6033, Monday through
Friday 8:00 a.m. to 5:00 p.m. Eastern Time, or write to Us at P.O. Box 566,
She eld, AL, 35660-0566.
You will not be liable for any unauthorized use that occurs after You notify Us.
You may, however, be liable for unauthorized use that occurs before Your notice
to Us. You will have no liability for unauthorized use unless You are found to be
fraudulent or negligent in the handling of Your Account or Card. In any case, Your
liability for unauthorized transactions will not exceed $50.
13. CHANGING OR TERMINATING YOUR ACCOUNT — As permitted by law, the
Credit Union may change the terms of this Agreement and any attached
Disclosure from time to time. Notice of any change will be given in accordance
with applicable law. To the extent permitted by law, changes to the Agreement
may apply to Your existing account balance as well as to future transactions.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

13/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

ay app y to ou e st g accou t ba a ce as

e as to utu e t a sact o s.

Arizona, California, Idaho, Louisiana, New Mexico, Nevada, Texas, Washington,
and Wisconsin Residents - Either You, Your spouse or the Credit Union may
terminate this Agreement at any time, but termination by You, Your spouse or
the Credit Union will not a ect Your obligation to pay the account balance plus
any nance and other charges You or Your spouse owe under this Agreement.
Your obligation to pay the account balance plus any nance and other charges
You owe under this agreement are subject to all applicable laws and regulations
regarding repayment requirements. The Card or Cards You receive remain the
property of the Credit Union and You must recover and surrender to the Credit
Union all Cards upon request or upon termination of this Agreement whether by
You or the Credit Union.
Residents of all other states - Either You or the Credit Union may terminate this
Agreement at any time, but termination by You or the Credit Union will not a ect
Your obligation to pay the account balance plus any nance and other charges
You owe under this Agreement. Your obligation to pay the account balance plus
any nance and other charges You owe under this agreement are subject to all
applicable laws and regulations regarding repayment requirements. The Card or
Cards You receive remain the property of the Credit Union and You must recover
and surrender to the Credit Union all Cards upon request or upon termination of

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

14/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

a d su e de to t e C ed t U o a Ca ds upo

equest o upo te

at o o

this Agreement whether by You or the Credit Union.
14. AUTHORIZED USERS — Upon Your request, We may issue additional Cards
for authorized users that You designate. You must notify Us in writing of any
termination of an authorized user's right to access Your Account. Your notice
must include the name of the authorized user and Your Account number and/or
any subaccount number issued to the authorized user along with the authorized
user's Card and any convenience or other access checks issued to the authorized
user. If You cannot return the authorized user's Card or access checks and if You
request Your Account to be closed, We will close Your Account and You may
apply for a new Account. Alternatively, We may, at Our sole discretion, issue You
a new Account number and a new Card.
15. CREDIT REPORTS AND NOTICE OF NEGATIVE INFORMATION — You
authorize the Credit Union to obtain credit reports and any other information We
may need to verify Your identity and use of the Account when opening Your
Account and for any update, increase, renewal, extension, collection or review of
Your Account. You authorize the Credit Union to disclose information regarding
Your Account to credit bureaus and creditors who inquire about Your credit
standing. We may report information about Your Account to credit bureaus. Late
payments, missed payments, or other defaults on Your Account may be re ected
on Your credit report.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

15/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

o

ou c ed t epo t.

16. JOINT ACCOUNTS — If this is a joint Account, each of You will be individually
and jointly responsible for paying all amounts owed under this Agreement. This
means that the Credit Union can require any one of You individually to repay the
entire amount owed under this Agreement. Each of You authorizes the other(s)
to make transactions on the Account individually. Any one of You may terminate
the Account and the termination will be e ective as to all of You.
17. EFFECT OF AGREEMENT — This Agreement is the contract which applies to all
transactions on Your Account even though the sales, cash advances, credit or
other slips You sign or receive may contain di erent terms.
18. SEVERABILITY AND FINAL EXPRESSION — This Agreement is the nal
expression of the terms and conditions of Your Account. This written Agreement
may not be contradicted by evidence of any alleged oral Agreement. Should any
part of this Agreement be found to be invalid or unenforceable, all other parts of
this Agreement shall remain in e ect and fully enforceable to the fullest extent
possible under this Agreement.
19. ILLEGAL TRANSACTIONS PROHIBITED — You agree that You will not use
Your Card for any transaction, including any type of electronic gambling
transaction through the Internet, that is illegal under applicable federal, state, or

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

16/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

t a sact o t

oug t e

te

et, t at s

ega u de app cab e ede a , state, o

local law.
Even if You use Your Card for an illegal transaction, You will be responsible for all
amounts and charges incurred in connection with the transaction. This
paragraph shall not be interpreted as permitting or authorizing any transaction
that is illegal.
20. APPLICABLE LAW — The terms and enforcement of this Agreement shall be
governed by federal law and the law of Alabama.

21. ENFORCING THIS AGREEMENT — We can delay in enforcing or fail to enforce
any of Our rights under this Agreement without losing them.
22. COLLECTION COSTS — If We refer collection of Your Account to a lawyer who
is not Our salaried employee, You are liable for any reasonable attorney’s fees
We incur, plus the costs and expenses of any legal action, as further disclosed on
this Agreement, or to the extent allowed by law.
23. ASSIGNMENT — We may assign any or all of Our rights and obligations under
this Agreement to a third party.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

17/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

24. CALIFORNIA RESIDENTS — A married applicant may apply for a separate
Account. Applicants: 1) may, after credit approval, use the credit card Account up
to its credit limit; 2) may be liable for amounts extended under the plan to any
joint applicant. As required by law, You are hereby noti ed that a negative credit
report re ecting on Your credit record may be submitted to a credit reporting
agency if You fail to ful ll the terms of Your credit obligations.
25. FLORIDA RESIDENTS — You (borrower) agree that, should We obtain a
judgment against You, a portion of Your disposable earnings may be attached
or garnished (paid to Us by Your employer), as provided by Florida and Federal
law.
26. MARYLAND RESIDENTS — To the extent, if any, that Maryland law applies to
Your Account, We elect to o er Your Card Account pursuant to Title 12, Subtitle 9
of the Maryland Commercial Law Article.
27. MISSOURI RESIDENTS — Oral Agreements or commitments to loan money,
extend credit or to forbear from enforcing repayment of a debt including
promises to extend or renew such debt are not enforceable. To protect You
(borrower(s)) and Us (creditor) from misunderstanding or disappointment,

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

18/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

any Agreements We reach covering such matters are contained in this writing,
which is the complete and exclusive statement of the Agreement between Us,
except as We may later agree in writing to modify it.
28. NEW YORK RESIDENTS — We may obtain a credit report in connection with
this Account, including for any review, modi cation, renewal or collections
associated with this Account. Upon Your request, You will be informed whether
such report was requested and, if so, the name and address of the consumer
reporting agency furnishing the report. New York residents may contact the New
York State Banking Department at 800.342.3736 or www.dfs.ny.gov to obtain a
comparative listing of credit card rates, fees and grace periods.
29. OHIO RESIDENTS — The Ohio laws against discrimination require that all
creditors make credit equally available to all creditworthy customers and that
credit reporting agencies maintain separate credit histories on each individual
upon request. The Ohio Civil Rights Commission administers compliance with
this law.
30. SOUTH DAKOTA RESIDENTS — If You believe there have been any
improprieties in making this loan or in the lender’s loan practices, You may
contact the South Dakota Division of Banking at 1601 N. Harrison Ave, Suite 1,

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

19/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

co tact t e Sout

a ota

so o

a

g at 60

. a

so

e, Su te ,

Pierre, SD 57501, or by phone at 605.773.3421.
31. WISCONSIN RESIDENTS — If You are married, please contact Us immediately
upon receipt of this Agreement at the address or phone number listed on this
Agreement and provide Us with the name and address of Your spouse. We are
required to inform Your spouse that We have opened an Account for You.
32. NOTICE TO UTAH BORROWERS — This written Agreement is a nal
expression of the Agreement between You and the Credit Union. This written
Agreement may not be contradicted by evidence of any oral Agreement. As
required by law, You are hereby noti ed that a negative credit report re ecting
on Your credit record may be submitted to a credit reporting agency if You fail to
ful ll the terms of Your credit obligations.
33. THE FOLLOWING IS REQUIRED BY VERMONT LAW — NOTICE TO CO-SIGNER
— YOUR SIGNATURE ON THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE
FOR REPAYMENT OF THIS LOAN. IF THE BORROWER DOES NOT PAY, THE
LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.

Your Billing Rights: Keep this Document for Future Use

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

20/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at the address listed
on Your statement. In Your letter, give Us the following information:
- Account information: Your name and Account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You
believe it is a mistake. You must contact Us:
- Within 60 days after the error appeared on Your statement.
- At least three business days before an automated payment is scheduled, if
You want to stop payment on the amount
You think is wrong.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

21/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

You must notify Us of any potential errors in writing or electronically. You may
call Us, but if You do We are not required to investigate any potential errors
and You may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
2. Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report You as
delinquent on that amount.
- The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
- While You do not have to pay the amount in question, You are responsible

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

22/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

for the remainder of Your balance.
- We can apply any unpaid amount against Your credit limit.
After We nish Our investigation, one of two things will happen:
- If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
- If We do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will send
You a statement of the amount You owe and the date payment is due. We
may then report You as delinquent if You do not pay the amount We think
You owe.
If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom We
reported You as delinquent, and We must let those organizations know
when the matter has been settled between Us.
If We do not follow all of the rules above, You do not have to pay the rst
$50 of the amount You question even if Your bill is correct.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

23/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

$50 o t e a ou t ou quest o e e

ou b

s co ect.

Your Rights if You Are Dissatis ed With Your Credit Card Purchases
If You are dissatis ed with the goods or services that You have purchased
with Your credit card, and You have tried in good faith to correct the
problem with the merchant, You may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in Your home state or within 100
miles of Your current mailing address, and the purchase price must have
been more than $50. (Note: Neither of these are necessary if Your
purchase was based on an advertisement We mailed to You, or if We
own the company that sold You the goods or services.)
2. You must have used Your credit card for the purchase. Purchases made
with cash advances from an ATM or with a check that accesses Your
credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

24/25

5/21/2021

Consumer Credit Card Agreement And… | Listerhill Credit Union

If all of the criteria above are met and You are still dissatis ed with the
purchase, contact Us in writing or electronically at the address listed on
Your statement.
While We investigate, the same rules apply to the disputed amount as
discussed above. After We nish Our investigation, We will tell You Our
decision. At that point, if We think You owe an amount and You do not pay,
We may report You as delinquent.

https://listerhill.com/borrowing/credit-cards/consumer-credit-card-agreement-and-disclosure

25/25

